Neutral
As of: October 19, 2020 2:12 PM Z

United States v. Jeffries
United States Court of Appeals for the Sixth Circuit
October 17, 2019, Argued; May 8, 2020 Decided; May 8, 2020, Filed
File Name: 20a0141p.06
No. 18-4081
Reporter
958 F.3d 517 *; 2020 U.S. App. LEXIS 14767 **; 2020 FED App. 0141P (6th Cir.) ***

UNITED STATES OF AMERICA, Plaintiff-Appellant, v.
JURMAINE A. JEFFRIES, Defendant-Appellee.

Subsequent History: Rehearing denied by, En banc United
States v. Jeffries, 2020 U.S. App. LEXIS 23569 (6th Cir., July
24, 2020)

Prior History: [**1] Appeal from the United States District
Court for the Northern District of Ohio at Akron. No. 5:16-cr00180-1—Solomon Oliver, Jr., District Judge.

causation. HOLDINGS: [1]-On appeal, the United States
argued that § 841(b)(1)(C) requires proof of only but-for
causation. The court agreed; [2]-Because death or injury from
the use of the substance is inherently foreseeable, there is no
need to require the government to prove that they were
reasonably foreseeable to the defendant. It therefore makes
sense to require the government to prove only but-for
causation in order to apply the enhanced penalty.

Outcome
The court reversed the judgment of the district court and
remanded for sentencing.

United States v. Jeffries, 2018 U.S. Dist. LEXIS 219134 (N.D.
Ohio, Oct. 1, 2018)

LexisNexis® Headnotes
Core Terms
enhancement, proximate, causation, foreseeable, ambiguous,
health-care, sentence, quotation, dispense, lenity,
manufacture, but-for, proximate-cause, fentanyl, disfavors,
user, unambiguous, persuasive, proscribed, knowingly,
causal, strict-liability, third-party, patients, addicts

Criminal Law & Procedure > Appeals > Standards of
Review > De Novo Review
Governments > Legislation > Interpretation
HN1[

Case Summary
Overview
ISSUE: Whether the district court properly construed 21
U.S.C.S. § 841(b)(1)(C) to require proof of proximate

] Standards of Review, De Novo Review

An issue of statutory interpretation is reviewed de novo.

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances > Delivery,
Distribution & Sale

Appendix A

Page 2 of 14
958 F.3d 517, *517; 2020 U.S. App. LEXIS 14767, **1; 2020 FED App. 0141P (6th Cir.), ***Cir.)
Criminal Law & Procedure > ... > Controlled
Substances > Possession > Intent to Distribute
HN2[
Sale

] Controlled Substances, Delivery, Distribution &

The Controlled Substances Act, Pub. L. No. 91-513, 84 Stat.
1242,, codified at 21 U.S.C.S. § 801 et seq., sets maximum
and minimum penalties for drug offenses, tying the penalty
for the offense to both the type of drug and the quantity
involved. 21 U.S.C.S. § 841(a)(1) makes it unlawful to
knowingly or intentionally manufacture, distribute, or
dispense, or possess with intent to manufacture, distribute, or
dispense a Schedule I or II substance. The Act categorizes
fentanyl as a Schedule II substance--a drug that has a high
potential for abuse and one that might lead to severe
psychological or physical dependence. 21 U.S.C.S. §
812(b)(2).

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances
Criminal Law & Procedure > Trials > Burdens of
Proof > Prosecution
Criminal Law & Procedure > Sentencing > Imposition of
Sentence > Statutory Maximums
HN3[

] Criminal Offenses, Controlled Substances

21 U.S.C.S. § 841(b)(1)(C) sets the maximum penalty for a
violation of § 841(a)(1) and imposes a sentence of not more
than twenty years. If, however, death or injury results from
the use of such substance, a defendant shall be sentenced to a
term of imprisonment of not less than twenty years or more
than life. 21 U.S.C.S. § 841(b)(1)(C). As § 841(b)(1)(C)'s
penalty enhancement increases the statutory maximum
penalty, it must be charged in the indictment and proven
beyond a reasonable doubt by the prosecution.

Supreme Court rejected the district court's contributing-cause
jury instruction and held that a defendant cannot be liable
under the death-enhancement provision unless the drug use is
a but-for cause of the death. The question of whether §
841(b)(1)(C) requires proof of proximate causation, however,
went unanswered.

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances
Criminal Law & Procedure > Sentencing > Imposition of
Sentence
HN5[

] Criminal Offenses, Controlled Substances

Every sister circuit to address the question (before and after
Burrage) holds that the 21 U.S.C.S. § 841(b)(1)(C) penalty
enhancement does not require proof of proximate causation.

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances
Criminal Law & Procedure > Sentencing > Imposition of
Sentence
HN6[

] Criminal Offenses, Controlled Substances

A thing "results" when it arises as an effect, issue, or outcome
from some action, process or design. 2 The New Shorter
Oxford English Dictionary 2570 (1993). The proper inquiry
then is whether death arose as an effect, issue, or outcome
from drug use. The causal relationship is accordingly between
the decedent's use of the controlled substance and the
resultant death. A proximate-cause or foreseeability
requirement misunderstands the causal relationship between
the conduct proscribed by 21 U.S.C.S. § 841(a)(1) and the
death from the use of a Schedule I or II drug. The question
under this statute's language is whether death resulted from
use of the controlled substance--not whether death was a
foreseeable result of the defendant's § 841(a)(1) violation.

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances
Criminal Law & Procedure > Sentencing > Imposition of
Sentence
HN4[

] Criminal Offenses, Controlled Substances

The U.S. Supreme Court interpreted 21 U.S.C.S. §
841(b)(1)(C)'s "results from" language in Burrage. The

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances
Governments > Legislation > Interpretation
Criminal Law & Procedure > Sentencing > Imposition of
Sentence

Page 3 of 14
958 F.3d 517, *517; 2020 U.S. App. LEXIS 14767, **1; 2020 FED App. 0141P (6th Cir.), ***Cir.)
HN7[

] Criminal Offenses, Controlled Substances

The specific context in which the "results from" language is
used further indicates that only but-for causation is required.
Reasonable statutory interpretation must account for both the
specific context in which language is used and the broader
context of the statute as a whole. 21 U.S.C.S. § 841(b)(1)(C)
is merely the penalty tied to the conduct proscribed in §
841(a)(1). It does not speak to the defendant's conduct or the
general causal connection between § 841(a)(1) and the death.
The penalty provision speaks only to the specific connection
between the use of the drugs distributed by the defendant and
the death that resulted from that use.

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances
Criminal Law & Procedure > Sentencing > Imposition of
Sentence
HN8[

background principles of criminal liability when it speaks
directly to the question addressed by the common law. Courts
may therefore take it as a given that Congress has legislated
with an expectation that the common law principle will apply
except when a statutory purpose to the contrary is evident.
Congress spoke directly to the level of causation required to
impose 21 U.S.C.S. § 841(b)(1)(C)'s penalty enhancement.
The statute puts drug dealers and users on clear notice that
their sentences will be enhanced if people die from using the
drugs they distribute. Where serious bodily injury or death
results from the distribution of certain drugs, Congress has
elected to enhance a defendant's sentence regardless of
whether the defendant knew or should have known that death
would result.

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances
Criminal Law & Procedure > Sentencing > Imposition of
Sentence

] Criminal Offenses, Controlled Substances
HN10[

The broader context of the Controlled Substances Act, Pub. L.
No. 91-513, 84 Stat. 1242, codified at 21 U.S.C.S. § 801 et
seq., further evinces the level of causation required to impose
the penalty enhancement. Use of a Schedule I or II controlled
substance is inherently dangerous. Death to the drug user is
therefore always foreseeable when a defendant manufactures,
distributes, dispenses, or possesses with intent to manufacture,
distribute, or dispense those substances. When death results
from the use of a Schedule I or II controlled substance, the
causal link between the defendant's proscribed conduct and
the death is simply not "so attenuated" as to preclude criminal
liability. A proximate-cause requirement precludes liability
where the consequence of a defendant's action is more aptly
described as mere fortuity.

Criminal Law & Procedure > Criminal Offenses

] Criminal Offenses, Controlled Substances

Because the Controlled Substances Act, Pub. L. No. 91-513,
84 Stat. 1242, codified at 21 U.S.C.S. § 801 et seq., does not
define the phrase results from, the U.S. Supreme Court first
ascertained the ordinary meaning of the phrase and held that
the penalty enhancement requires proof of but-for causation.
Only then did the Court turn to other legitimate tools of
interpretation to bolster that conclusion.

Governments > Legislation > Interpretation
HN11[

] Legislation, Interpretation

Statutory interpretation embraces not just textual purpose but
also a word's historical associations acquired from recurrent
patterns of past usage.

Governments > Legislation > Interpretation
HN9[

] Criminal Law & Procedure, Criminal Offenses

It is true that the law has long considered causation a hybrid
concept, consisting of two constituent parts: actual cause and
legal cause. When a crime requires not merely conduct but
also a specified result of conduct, a defendant generally may
not be convicted unless his conduct is both (1) the actual
cause, and (2) the legal cause (often called the proximate
cause) of the result. But Congress may abrogate traditional

Criminal Law & Procedure > Criminal Offenses > Acts
& Mental States
Criminal Law & Procedure > Criminal Offenses
Criminal Law & Procedure > Sentencing > Imposition of
Sentence
HN12[

] Criminal Offenses, Acts & Mental States

Page 4 of 14
958 F.3d 517, *517; 2020 U.S. App. LEXIS 14767, **1; 2020 FED App. 0141P (6th Cir.), ***Cir.)
A strict-liability offense is an offense for which the action
alone is enough to warrant a conviction, with no need to prove
a mental state. Strict-Liability Crime, Black's Law Dictionary
(11th ed. 2019). 21 U.S.C.S. § 841(a)(1) makes it unlawful for
any person knowingly or intentionally. to manufacture,
distribute, or dispense, or possess with intent to manufacture,
distribute or dispense, a controlled substance. To impose the
enhanced penalty, the government must first prove beyond a
reasonable doubt that the defendant "knowingly or
intentionally" violated § 841(a)(1). Section 841(a)(1)'s mens
rea provision thus necessarily prevents the categorization of §
841(b)(1)(C) as a penalty for a strict-liability criminal offense.
Section 841(b)(1)(C) does not contain a separate mens rea
element but rather serves to elevate the crime of knowingly or
intentionally distributing controlled substances to a more
serious level.

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances

Criminal Law & Procedure > Sentencing > Imposition of
Sentence
HN14[

] Criminal Offenses, Controlled Substances

21 U.S.C.S. § 841(b)(1)(C)'s enhanced penalty applies, not
when the prohibited conduct, i.e., the distribution,
manufacture, or dispensing of, or possession with the intent to
distribute, manufacture, or dispense the controlled substance,
results in death or injury, but when death or injury results
from the use of such substance. 21 U.S.C.S. § 841(b)(1)(C). It
is always foreseeable that a violation of § 841(a)(1) will
involve an ultimate user of the substance and that death or
injury may result from that use. Because death or injury from
the use of the substance is inherently foreseeable, there is no
need to require the government to prove that they were
reasonably foreseeable to the defendant. It therefore makes
sense to require the government to prove only but-for
causation in order to apply the enhanced penalty.

Criminal Law & Procedure > Sentencing > Imposition of
Sentence

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances

Criminal Law & Procedure > Criminal Offenses > Fraud

Criminal Law & Procedure > Sentencing > Imposition of
Sentence

HN13[

] Criminal Offenses, Controlled Substances
HN15[

Despite their facial similarities, 21 U.S.C.S. § 841(a)(1) and
18 U.S.C.S. § 1347 are meaningfully distinct. Section 1347
criminalizes health-care fraud, which occurs when a
defendant knowingly executes a scheme or artifice to defraud
a health-care benefit program or fraudulently obtains money
or property owned by a health-care benefit program in
connection with the delivery of health-care services. §
1347(a). The penalty enhancement applies only if the
defendant's fraud results in serious bodily injury or death to a
third-party victim. 18 U.S.C.S. § 1347(a)(2). The health-carefraud statute covers a wide range of illegal activity, which
may or may not contemplate injury or death to third-party
victims. In circumstances in which the potential for injury or
death is not an inherently foreseeable result of the conduct
proscribed by § 1347, it might make sense to require the
government to prove that it was reasonably foreseeable to the
defendant that the conduct would be likely to lead to injury or
death, and that the prohibited conduct was the proximate
cause of the injury or death.

] Criminal Offenses, Controlled Substances

21 U.S.C.S. § 841(b)(1)(C)'s penalty enhancement is
explicitly limited. Unlike the penalty enhancement in the
health-care-fraud statute, which may apply if any violation of
the statute results in death, § 841(b)(1)(C) applies only when
the use of the substance results in death. So, for example, a
defendant convicted under § 841(a)(1) of distributing heroin
is not subject to this enhanced penalty because someone was
shot in the course of the distribution.

Constitutional Law > The Judiciary > Case or
Controversy
HN16[

] The Judiciary, Case or Controversy

In the adversary, common-law system, courts properly answer
only the questions that the parties present to them and that are
necessary for the resolution of the case at hand.

Criminal Law & Procedure > Criminal
Offenses > Controlled Substances
Counsel: ARGUED: Megan R. Miller, UNITED STATES

Page 5 of 14
958 F.3d 517, *517; 2020 U.S. App. LEXIS 14767, **1; 2020 FED App. 0141P (6th Cir.), ***Cir.)
ATTORNEY'S OFFICE, Cleveland, Ohio, for Appellant.
Claire R. Cahoon, FEDERAL PUBLIC DEFENDER, Toledo,
Ohio, for Appellee.
ON BRIEF: Megan R. Miller, UNITED STATES
ATTORNEY'S OFFICE, Cleveland, Ohio, for Appellant.
Claire R. Cahoon, FEDERAL PUBLIC DEFENDER, Toledo,
Ohio, for Appellee.

Judges: Before: BOGGS, BATCHELDER, and DONALD,
Circuit Judges. BATCHELDER, J., delivered the opinion of
the court in which BOGGS, J., joined. DONALD, J.,
delivered a separate dissenting opinion.

Opinion by: ALICE M. BATCHELDER

Opinion
[*518] [***2] ALICE M. BATCHELDER, Circuit Judge.
A jury convicted Jurmaine Jeffries of drug-related offenses, in
violation of 21 U.S.C. § 841(a)(1) and (b)(1)(C). The district
court granted Jeffries's motion for a new trial, finding that it
erroneously failed to include jury instructions that required
the United States to prove proximate causation in addition to
but-for causation. On appeal, the United States argues that §
841(b)(1)(C) requires proof of only but-for causation. We
agree and therefore REVERSE and REMAND for
sentencing.

I.
On September 16, 2016, police officers [**2] discovered J.H.
deceased in her home. Near J.H.'s body lay an array of drug
paraphernalia, including a small bag of brown powder, later
determined to be .58 grams of fentanyl. The officers found
text messages in J.H.'s cellphone that indicated that she had
attempted to buy or had bought drugs from Jeffries earlier that
day. The officers, pretending to be J.H., texted Jeffries and
requested more drugs.
Forty-five minutes later, Jeffries arrived at J.H.'s home and

the officers arrested him. A search of Jeffries's car revealed
separately packaged bags holding 1.69 grams of fentanyl, as
well as a cellphone containing the text messages sent from
J.H.'s cellphone. In Jeffries's pocket, the officers found $446
and another bag of fentanyl, containing 36.14 grams of
fentanyl.
Jeffries was charged with one count of possessing fentanyl
with intent to distribute and one count of distributing fentanyl,
the use of which resulted in death. See 21 U.S.C. § 841(a)(1),
(b)(1)(C). At trial, two medical experts testified that the
amount of fentanyl in J.H.'s system was "significantly above
the lethal level" and that no other "anatomical issues" could
have caused J.H.'s death. R. 143, PageID#: 1662, 1664.
Jeffries asked the district court [**3] to instruct the jury that,
to impose § 841(b)(1)(C)'s sentencing enhancement, the
government was required to "prove beyond a reasonable
doubt that the death of J.H. was the natural and foreseeable
result of the defendant's actions." R. 104, [***3] PageID#:
709. The district court, however, declined Jeffries's proposed
jury instruction and instead told the jury that to convict under
§ 841(b)(1)(C):
the [g]overnment must prove beyond a reasonable doubt
that but for the use of [*519] the drugs the Defendant
distributed, [J.H.] would not have died. "But for"
causation exist[s] where death would not have occurred
had the controlled substance distributed by the
Defendant not been ingested by [J.H.]. In other words,
there is "but for" causation where use of the controlled
substance, combined with other factors to produce death
and death would not have occurred without the
incremental effect of the controlled substance.
R 144, PageID#: 1825. The jury returned a guilty verdict on
both counts and found that § 841(b)(1)(C)'s sentencing
enhancement applied to the distribution count.
Jeffries filed a motion for a new trial, alleging that the district
court committed substantial legal error by failing to give his
proposed proximate-cause jury instruction. [**4] The district
court viewed § 841(b)(1)(C)'s language as ambiguous and
therefore turned to "traditional background principles of
criminal liability" to insert a proximate-cause requirement
into the penalty enhancement. United States v. Jeffries, No.
5:16-cr-180, 2018 U.S. Dist. LEXIS 219134, 2018 WL
9811109, at *5 (N.D. Ohio Oct. 1, 2018). The district court
accordingly held that it had made a substantial legal error by
failing to include the proximate-cause jury instruction and
granted Jeffries's motion for a new trial. 2018 U.S. Dist.
LEXIS 219134, [WL] at *8. The United States timely
appealed from the district court's judgment.

Page 6 of 14
958 F.3d 517, *519; 2020 U.S. App. LEXIS 14767, **4; 2020 FED App. 0141P (6th Cir.), ***3

II.
The sole issue on appeal is whether the district court properly
construed § 841(b)(1)(C) to require proof of proximate
causation. HN1[ ] Because this is an issue of statutory
interpretation, we review de novo. In re Application to Obtain
Discovery for Use in Foreign Proceedings, 939 F.3d 710, 717
(6th Cir. 2019).

A.
HN2[ ] The Controlled Substances Act, Pub. L. No. 91-513,
84 Stat. 1242,, codified at 21 U.S.C. § 801 et seq., sets
maximum and minimum penalties for drug offenses, tying the
penalty for the offense to both the type of drug and the
quantity involved. Burrage v. United States, 571 U.S. 204,
208-09, 134 S. Ct. 881, 187 L. Ed. 2d 715 (2014). Here, the
relevant offense is § 841(a)(1), which makes it unlawful to
[***4] knowingly or intentionally manufacture, distribute, or
dispense, or possess with intent to manufacture, distribute, or
dispense a Schedule I or II substance. The Act categorizes
fentanyl as a Schedule II substance—a drug that has "a high
potential for [**5] abuse" and one that might "lead to severe
psychological or physical dependence." § 812(b)(2).
HN3[ ] Section 841(b)(1)(C) sets the maximum penalty for
a violation of § 841(a)(1) and imposes a sentence of not more
than twenty years. If, however, "death or injury results from
the use of such substance," a defendant "shall be sentenced to
a term of imprisonment of not less than twenty years or more
than life." § 841(b)(1)(C). As § 841(b)(1)(C)'s penalty
enhancement increases the statutory maximum penalty, it
must be charged in the indictment and proven beyond a
reasonable doubt by the prosecution. See Alleyne v. United
States, 570 U.S. 99, 107-08, 133 S. Ct. 2151, 186 L. Ed. 2d
314 (2013); Apprendi v. New Jersey, 530 U.S. 466, 490, 120
S. Ct. 2348, 147 L. Ed. 2d 435 (2000).
HN4[ ] The Supreme Court interpreted § 841(b)(1)(C)'s
"results from" language in Burrage v. United States, 571 U.S.
204, 134 S. Ct. 881, 187 L. Ed. 2d 715 (2014). In Burrage, a
known drug addict died after injecting heroin distributed by
the defendant. Id. at 206. Medical experts could only
conclude that the "heroin was a contributing factor" without
which the addict's death "would have been [*520] very less
likely." Id. at 207 (internal quotation and editing marks
omitted). The district court declined the defendant's jury
instructions that required proof of but-for and proximate
causation. Id. at 207-08. The jury was instead instructed that,
to convict under § 841(b)(1)(C), the government need prove
only that the heroin distributed by the defendant was a

"contributing cause" of death. Id. at 208. The Supreme Court
rejected [**6] the district court's contributing-cause jury
instruction and held that a defendant cannot be liable under
the death-enhancement provision unless the drug use is a butfor cause of the death. Id. at 218-19. The question of whether
§ 841(b)(1)(C) requires proof of proximate causation,
however, went unanswered. See id. at 208, 218-19.
Whether § 841(b)(1)(C)'s penalty enhancement requires proof
of proximate causation is a question of first impression for
this court.1 HN5[ ] We note, however, that every sister
circuit to address the question (before and after Burrage)
holds that the penalty enhancement does not require [***5]
proof of proximate causation. See United States v. Harden,
893 F.3d 434, 447-49 (7th Cir. 2018), cert. denied, 139 S. Ct.
394, 202 L. Ed. 2d 300 (2018); United States v. Alvarado, 816
F.3d 242, 249-50 (4th Cir. 2016), cert. denied, 137 S. Ct. 492,
196 L. Ed. 2d 408 (2016); United States v. Burkholder, 816
F.3d 607, 617-18 (10th Cir. 2016), cert. denied, 137 S. Ct.
623, 196 L. Ed. 2d 532 (2017) (interpreting similar language
in § 841(b)(1)(E)); United States v. Webb, 655 F.3d 1238,
1254-55 (11th Cir. 2011); United States v. De La Cruz, 514
F.3d 121, 137-38 (1st Cir. 2008); United States v. Houston,
406 F.3d 1121, 1124-25 (9th Cir. 2005); United States v.
Carbajal, 290 F.3d 277, 283-85 (5th Cir. 2002); United States
v. McIntosh, 236 F.3d 968, 972-73 (8th Cir. 2001) (abrogated
on other grounds by Burrage, 571 U.S. at 204); United States
v. Robinson, 167 F.3d 824, 830-32 (3d Cir. 1999); United
States v. Patterson, 38 F.3d 139, 144-45 (4th Cir. 1994).2

B.
We begin with the ordinary meaning of § 841(b)(1)(C)'s
"results from" language. HN6[ ] "A thing 'results' when it
'arises as an effect, issue, or outcome from some action,
process or design.'" Burrage, 571 U.S. at 210-11 (internal
editing marks omitted) (quoting 2 The New Shorter Oxford
English Dictionary 2570 (1993)). The proper inquiry then is

1 Although

this court has recently published an opinion dealing with
the application of the enhancement in the context of a conspiracy to
distribute drugs, see United States v. Hamm, 952 F.3d 728, 741-47
(6th Cir. 2020), it does not touch upon the issue we tackle here.
2 The

dissent attaches much importance to the Burrage Court's grant
of certiorari on the question of whether § 841(b)(1)(C) requires proof
of proximate causation. The dissent opines that four justices may
have concluded that every court of appeals to reach the proximatecause issue had erred in its interpretation. We wonder why the
dissent declines to give the same weight to the Supreme Court's
denial of certiorari in the post-Burrage cases that held that §
841(b)(1)(C) requires proof of only but-for causation.

Page 7 of 14
958 F.3d 517, *520; 2020 U.S. App. LEXIS 14767, **6; 2020 FED App. 0141P (6th Cir.), ***5
whether death arose as an effect, issue, or outcome from drug
use. The causal relationship is accordingly between the
decedent's use of the controlled substance [**7] and the
resultant death. A proximate-cause or foreseeability
requirement misunderstands the causal relationship between
the conduct proscribed by § 841(a)(1) and the death from the
use of a Schedule I or II drug. The question under this
statute's language is whether death resulted from [*521] use
of the controlled substance—not whether death was a
foreseeable result of the defendant's § 841(a)(1) violation.
HN7[ ] The specific context in which the "results from"
language is used further indicates that only but-for causation
is required. See Util. Air Regulatory Grp. v. EPA, 573 U.S.
302, 321, 134 S. Ct. 2427, 189 L. Ed. 2d 372 (2014)
("[R]easonable statutory interpretation must account for both
the specific context in which . . . language is used and the
broader context of the statute as a whole.") (internal [***6]
quotation marks omitted). Section 841(b)(1)(C) is merely the
penalty tied to the conduct proscribed in § 841(a)(1). It does
not speak to the defendant's conduct or the general causal
connection between § 841(a)(1) and the death. The penalty
provision speaks only to the specific connection between the
use of the drugs distributed by the defendant and the death
that resulted from that use. But Jeffries's proposed jury
instructions would require the government to prove that the
victim's death was a "natural and foreseeable result of
[Jeffries's] actions [**8] ." R. 104, PageID#: 709 (emphasis
added). He therefore asks us to hold that § 841(b)(1)(C)
requires proof that the defendant's § 841(a)(1) violation was
the proximate cause of the death. The structure of the statute,
however, belies that interpretation.
HN8[ ] The broader context of the Controlled Substances
Act further evinces the level of causation required to impose
the penalty enhancement. See Utility Air Regulatory Grp., 573
U.S. at 321. Use of a Schedule I or II controlled substance is
inherently dangerous. Death to the drug user is therefore
always foreseeable when a defendant manufactures,
distributes, dispenses, or possesses with intent to manufacture,
distribute, or dispense those substances. When death results
from the use of a Schedule I or II controlled substance, the
causal link between the defendant's proscribed conduct and
the death is simply not "so attenuated" as to preclude criminal
liability. See Paroline v. United States, 572 U.S. 434, 445,
134 S. Ct. 1710, 188 L. Ed. 2d 714 (2014) (explaining that a
proximate-cause requirement precludes liability where the
consequence of a defendant's action "is more aptly described
as mere fortuity").
Because the phrase "results from" is not ambiguous, it is
unnecessary to look to traditional background principles of
criminal liability to resolve the interpretive inquiry before us.

HN9[ ] It is [**9] true that
[t]he law has long considered causation a hybrid concept,
consisting of two constituent parts: actual cause and legal
cause. When a crime requires not merely conduct but
also a specified result of conduct, a defendant generally
may not be convicted unless his conduct is both (1) the
actual cause, and (2) the legal cause (often called the
proximate cause) of the result.
Burrage, 571 U.S. at 210 (internal citations and quotation
marks omitted). But Congress may abrogate traditional
background principles of criminal liability when it "speak[s]
directly to the question addressed by the common law."
United States v. Texas, 507 U.S. 529, 534, 113 S. Ct. 1631,
123 L. Ed. 2d 245 (1993) [***7] (internal quotation marks
omitted). Courts may therefore "take it as a given that
Congress has legislated with an expectation that the common
law principle will apply except when a statutory purpose to
the contrary is evident." Id. (internal quotation and editing
marks omitted) (quoting Astoria Fed. Sav. & Loan Ass'n v.
Solimino, 501 U.S. 104, 108, 111 S. Ct. 2166, 115 L. Ed. 2d
96 (1991)).
Congress spoke directly to the level of causation required to
impose § 841(b)(1)(C)'s penalty enhancement.
[*522] [T]he statute puts drug dealers and users on
clear notice that their sentences will be enhanced if
people die from using the drugs they distribute. Where
serious bodily injury or death results from the
distribution of certain drugs, [**10] Congress has
elected to enhance a defendant's sentence regardless of
whether the defendant knew or should have known that
death would result.
Robinson, 167 F.3d at 830 (internal quotation marks and
editing marks omitted) (quoting Patterson, 38 F.3d 139 at
145).

C.
The district court found that § 841(b)(1)(C)'s "results from"
language is ambiguous and therefore looked to general
principles of criminal law to impose the proximate-cause
requirement. The district court cited the Burrage Court's
mode of statutory interpretation and noted that the Supreme
Court pointed to extratextual sources throughout its
interpretive inquiry. Jeffries, 2018 U.S. Dist. LEXIS 219134,
2018 WL 9811109, at *5. Beyond considering the ordinary
meaning of the phrase, the district court opined that the
Burrage Court analyzed the traditional understanding of
causation in criminal law, case law interpreting similar

Page 8 of 14
958 F.3d 517, *522; 2020 U.S. App. LEXIS 14767, **10; 2020 FED App. 0141P (6th Cir.), ***7
language, and the rule of lenity to reach its conclusion. Id. So,
based on this analysis, the district court explained that "the
Burrage [C]ourt may have viewed the statutory language of
'results from' as ambiguous," and accordingly held that the
penalty enhancement is "broad enough, on its face, to
encompass both proximate and but-for causation." Id.

categorization of § 841(b)(1)(C) as a penalty for a strictliability criminal offense. See Alvarado, 816 F.3d at 250
(explaining that § 841(b)(1)(C) does not contain a separate
mens rea element but rather "serves to elevate [**13] the
crime of knowingly or intentionally distributing [controlled
substances] to a more serious level").

The Supreme Court's mode of statutory analysis in Burrage
does not support the district [**11] court's conclusion.
HN10[ ] Because "[t]he Controlled Substances Act does not
define the phrase 'results from,'" the Court first ascertained the
ordinary meaning of the phrase and held that the penalty
enhancement requires proof of but-for causation. Burrage,
571 U.S. at 210-11. Only then did the Court turn to other
legitimate tools of interpretation to bolster that conclusion. Id.
at 211-14; [***8] see Antonin Scalia & Bryan A. Garner,
Reading Law: The Interpretation of Legal Texts 33
(explaining that HN11[ ] statutory interpretation embraces
not just textual purpose but also "a word's historical
associations acquired from recurrent patterns of past usage").

The district court likewise erred when it held that its
interpretation of § 841(b)(1)(C) was compelled by this court's
decision in United States v. Martinez, 588 F.3d 301 (6th Cir.
2009). In that case, Martinez engaged in health-care fraud by
"providing at-risk patients with treatments [***9] that would
leave them dependent on him for pain-suppressant
prescriptions." Id. at 307. The government charged Martinez
with, among other things, health-care fraud resulting in the
death of patients, in violation of 18 U.S.C. § 1347 and §
1347(a)(2), the latter of which provides an enhanced penalty
"if the violation results in death." Id. at 306, 309. At trial, the
district court instructed the jury that to convict Martinez on
the § 1347(a)(2) enhancement, it must find that the fraud was
"the proximate cause of the death of the two patients." Id. at
318. The jury convicted Martinez of the § 1347 offenses and
he appealed. Id. at 308-09.

Although the Burrage Court mentioned the rule of lenity, it
did not invoke the rule to reach its holding. Id. at 216.
Burrage rejected an interpretation of § 841(b)(1)(C) that
would require the government to prove only that the drug use
was a "contributing cause" of death. Id. at 208. In rejecting
that interpretation, the Court explained that "[e]specially in
the interpretation of a criminal statute subject to the rule of
lenity, we cannot give the text a meaning that is different from
its ordinary, accepted meaning, and that disfavors the
defendant." Id. at 216 (internal citations omitted). But the
Court did not invoke the rule to [**12] resolve its interpretive
inquiry. Burrage's mode of analysis therefore cannot support
the district court's conclusion that § 841(b)(1)(C)'s penalty
enhancement is ambiguous.
The district court's analysis is also incorrect insofar as it
characterizes § 841(b)(1)(C) as a penalty enhancement of a
strict-liability crime. See Jeffries, 2018 U.S. Dist. LEXIS
219134, 2018 WL 9811109, at *5. HN12[ ] A strict-liability
offense is "[a]n offense for which the action alone is enough
to warrant a conviction, with no need to prove a mental state."
Strict-Liability Crime, Black's Law Dictionary (11th ed.
2019). The criminal statute which Jeffries was convicted of
violating contains an express mens rea requirement. See 21
U.S.C. § 841(a)(1) (making it unlawful for "any person
knowingly or intentionally . . . [*523] to manufacture,
distribute, or dispense, or possess with intent to manufacture,
distribute or dispense, a controlled substance") (emphasis
added). To impose the enhanced penalty, the government
must first prove beyond a reasonable doubt that the defendant
"knowingly or intentionally" violated § 841(a)(1). Section
841(a)(1)'s mens rea provision thus necessarily prevents the

Martinez challenged the sufficiency of the evidence to support
his conviction under § 1347(a)(2)'s penalty enhancement. Id.
at 317. Although the parties did not challenge the standard of
causation required by the enhancement, we held that
proximate cause was the appropriate standard to apply in
interpreting the phrase "if the violation results in
death" [**14] for purposes of Martinez's appeal. Id. at 31819. We concluded that the jury could reasonably have found
that the patients' addictions and overdoses were a reasonably
foreseeable result of Martinez's fraudulent scheme. Id. at 31923.
Martinez is not dispositive here for two reasons. HN13[ ]
First, despite their facial similarities, 21 U.S.C. § 841(a)(1)
and 18 U.S.C. § 1347 are meaningfully distinct. Section 1347
criminalizes health-care fraud, which occurs when a
defendant knowingly executes a "scheme or artifice" to
defraud a health-care benefit program or fraudulently obtains
money or property owned by a health-care benefit program in
connection with the delivery of health-care services. §
1347(a). The penalty enhancement applies only if the
defendant's fraud "results in" serious bodily injury or death to
a third-party victim. § 1347(a)(2).
The health-care-fraud statute covers a wide range of illegal
activity, which may or may not contemplate injury or death to
third-party victims. Compare Martinez, 588 F.3d at 306-07,
(health-care fraud through prescription of painkillers to drug
addicts), with United States v. Hunt, 521 F.3d 636, 640-41

Page 9 of 14
958 F.3d 517, *523; 2020 U.S. App. LEXIS 14767, **14; 2020 FED App. 0141P (6th Cir.), ***9
(6th Cir. 2008) (health-care fraud through a billing and
kickback scheme). In circumstances in which the potential for
injury or death is not an inherently foreseeable result of the
conduct proscribed by § 1347, it might make sense to
require [**15] the government to prove that it was reasonably
foreseeable to the defendant that the conduct would be likely
to lead to injury [***10] or death, see Martinez, 588 F.3d at
319, and that the prohibited conduct was the proximate cause
of the injury or death.
[*524] HN14[ ] But § 841(b)(1)(C)'s enhanced penalty
applies, not when the prohibited conduct, i.e., the distribution,
manufacture, or dispensing of, or possession with the intent to
distribute, manufacture, or dispense the controlled substance,
results in death or injury, but when "death or injury results
from the use of such substance." § 841(b)(1)(C) (emphasis
added). It is always foreseeable that a violation of § 841(a)(1)
will involve an ultimate user of the substance and that death
or injury may result from that use. Because death or injury
from the use of the substance is inherently foreseeable, there
is no need to require the government to prove that they were
reasonably foreseeable to the defendant. It therefore makes
sense to require the government to prove only but-for
causation in order to apply the enhanced penalty.
HN15[ ] Finally, § 841(b)(1)(C)'s penalty enhancement is
explicitly limited. Unlike the penalty enhancement in the
health-care-fraud statute, which may apply if any violation of
the statute results in death, § 841(b)(1)(C) applies [**16]
only when the use of the substance results in death. So, for
example, a defendant convicted under 21 U.S.C. § 841(a)(1)
of distributing heroin is not subject to this enhanced penalty
because someone was shot in the course of the distribution.
Second, Martinez responded to a defendant's sufficiency-ofthe-evidence challenge, which required the court to evaluate
the proximate-cause standard in light of the district court's
proximate-cause jury instructions. The focus in Martinez was
thus "on what is sufficient for the imposition of the penalty
enhancement—not, as here, on what is necessary." See
Burkholder, 816 F.3d at 620. In other words, Martinez "does
not necessarily preclude the possibility that a less-demanding
causation standard—such as but-for causation—would also be
sufficient" to support imposition of § 1347(a)(2)'s penalty
enhancement. See id. at 620, 620 n.11 HN16[ ] ("In our
adversary, common-law system, courts properly answer only
the questions that the parties present to them and that are
necessary for the resolution of the case at hand."). Martinez
therefore cannot support the district court's interpretation.

[***11] III.

For the foregoing reasons, we REVERSE the judgment of the
district court and REMAND for sentencing.
Dissent by: BERNICE BOUIE DONALD

Dissent

[***12] BERNICE BOUIE DONALD, dissenting. [**17]
The "death results" enhancement in 21 U.S.C. § 841(b)(1)(C)
is ambiguous. In reaching a different conclusion, the majority
ignores or fails to distinguish both Supreme Court and Circuit
precedent. Because the statute is ambiguous and should be
interpreted against a common law backdrop, the Court should
apply the rule of lenity and find in favor of the interpretation
that is more favorable to the defendant. I respectfully dissent.
21 U.S.C. § 841 provides a penalty enhancement for drug
manufacturing, distribution, dispensation, or possession, with
intent to do any of those things, of a controlled substance "if
death or serious bodily injury results from the use of such
substance." 21 U.S.C. § 841(a)(1) & (b)(1)(C). The
enhancement is significant. When the enhancement applies,
the sentence shall be "not less than twenty years [nor] more
than life." 21 U.S.C. § 841(b)(1)(C). Repeat offenders face
mandatory "life imprisonment" if death results. Id. The issue
in this case is whether the "death . . . results from the use of
such substance" language requires proof of [*525] proximate
cause. The district court concluded it does; the majority
concludes it does not.

I. Standard of Review
The Court reviews issues of statutory construction de novo, as
they are pure questions of law. United States v. Kassouf, 144
F.3d 952, 955 (6th Cir. 1998). In construing [**18] statutes,
the Court begins with the plain language, and, if it is
"unambiguous," then the "inquiry must cease." Robinson v.
Shell Oil Co., 519 U.S. 337, 340, 117 S. Ct. 843, 136 L. Ed.
2d 808 (1997). If the statute is ambiguous, the Court will turn
to other tools of statutory construction. As demonstrated
below, Section 841's "death results" language is ambiguous,
and those other tools favor requiring proof of proximate
cause.

II. The Language of 18 U.S.C. § 841(b)(1)(C) Is
Ambiguous

Page 10 of 14
958 F.3d 517, *525; 2020 U.S. App. LEXIS 14767, **18; 2020 FED App. 0141P (6th Cir.), ***12
Here, the language is ambiguous. In Burrage v. United States,
the Supreme Court addressed the statute and language at issue
in this case, concluding that it requires proof of actual
[***13] cause but declining to answer whether it requires
proof of proximate cause. 571 U.S. 204, 210-11, 134 S. Ct.
881, 187 L. Ed. 2d 715 (2014). The court began its analysis by
noting that the "law has long considered causation a hybrid
concept, consisting of two constituent parts: actual cause and
legal cause . . . . (often called the proximate cause)." Id. at
210. The court explained that, in ordinary language, "[a] thing
'results' when it '[a]rise[s] as an effect, issue, or outcome from
some action, process[,] or design.'" Id. at 210-11 (quoting The
New Shorter Oxford English Dictionary 2570 (1993)). After
rejecting the government's various arguments, the court
concluded that "[e]specially in the interpretation of a criminal
statute [**19] subject to the rule of lenity, we cannot give the
text a meaning that is different from its ordinary, accepted
meaning, and that disfavors the defendant." Id. at 216
(citation omitted). Justices Ginsburg and Sotomayor did not
agree that the statute was unambiguous (in terms of actual
cause) but did "agree that 'in the interpretation of a criminal
statute subject to the rule of lenity,' where there is room for
debate, one should not choose the construction 'that disfavors
the defendant.'" Id. at 219 (Ginsburg, J., concurring) (quoting
the majority opinion).

A. The Supreme Court's Grant of Certiorari Suggests the
Language Is Ambiguous
Although Burrage does not answer our question, it provides
helpful guidance. In addition to the majority and
concurrence's reliance on the rule of lenity with this specific
statute's language in Burrage, the court also granted certiorari
on the question of whether that language requires proof of
proximate cause. Id. at 208, 210 ("Whether the defendant may
be convicted under the 'death results' provision . . . without
separately instructing the jury that it must decide whether the
victim's death by drug overdose was a foreseeable result of
the defendant's drug-trafficking offense."). In granting [**20]
certiorari, the Supreme Court, at the very least, suggested that
the statute is not as straightforward as the majority opines.
The "rule of four" is the Supreme Court's "practice of granting
certiorari on the vote of four Justices." Ferguson v. MooreMcCormack Lines, Inc., 352 U.S. 521, 527, 77 S. Ct. 457, 1 L.
Ed. 2d 511 (1957) (Frankfurter, J., dissenting) (internal
quotations omitted). Justice Frankfurter explained that "[t]he
rule of four is not a command of Congress. It is a working
rule devised by [*526] the Court as a practical mode of
determining that a case is deserving of review, the theory
being that if four Justices find that a [***14] legal question
of general importance is raised, that is ample proof that the

question has such importance." Id. at 529 (internal quotations
omitted).
As the majority highlighted in its opinion,1 every circuit
which had examined the question agreed that proximate cause
was not required at the time that the court granted certiorari in
Burrage.2 United States v. Webb, 655 F.3d 1238, 1254-55
(11th Cir. 2011); United States v. Houston, 406 F.3d 1121,
1124-25 (9th Cir. 2005); United States v. Carbajal, 290 F.3d
277, 283-85 (5th Cir. 2002) (examining similar language in
the sentencing guidelines); United States v. Soler, 275 F.3d
146, 152-53 (1st Cir. 2002)3; United States v. McIntosh, 236
F.3d 968, 972-73 (8th Cir. 2001) (abrogated on other grounds
by Burrage, 571 U.S. at 204); United States v. Robinson, 167
F.3d 824, 830-32 (3d Cir. 1999); United States v. Patterson,
38 F.3d 139, 145 (4th Cir. 1994).
If every circuit agreed on the proximate cause issue, then why
would the court grant certiorari? No circuit split existed on the
proximate cause issue. See S. Ct. R. 10(a) (considerations
governing review of certiorari). [**21] A state court would
not have commented on this federal statute. See id. Maybe,
four justices believed that "a United States court of appeals . .
. ha[d] so far departed from the accepted and usual course of
judicial proceedings, . . . as to call for an exercise of this
Court's supervisory power." Id. Maybe, four justices believed
this issue is "an important question of federal law that has not
been, but should be, settled by [the Supreme] Court." Id. No
matter the answer, the grant of certiorari certainly suggests
that four justices had some questions about whether proof of
proximate cause is required under § 841(b)(1)(C)'s "death
results" enhancement. If the language were unambiguous as
the majority and the other circuits find, then the Supreme
Court would have had little to no reason to grant certiorari
and ask the question.

[***15] B. The Out-of-Circuit Cases Provide Little
Persuasive Value
The majority's reliance on the other circuits is problematic, as
circuits were often incorrect in their analysis on other issues
related to this same statute and the logic was circular as courts

1I

will address the majority's reliance on some of these cases later in
the opinion.
2 This

agreement is in contrast to the issue of actual cause where
there was a circuit split.
3 The

majority cites to United States v. De La Cruz, 514 F.3d 121
(1st Cir. 2008), but that case was merely an extension of Soler, see
De La Cruz, 514 F.3d at 137 (quoting Soler). Maj. Op. at 5.

Page 11 of 14
958 F.3d 517, *526; 2020 U.S. App. LEXIS 14767, **21; 2020 FED App. 0141P (6th Cir.), ***15
began to simply refer to the decisions of the other courts. The
Fourth Circuit was the first circuit to address our
current [**22] question. Patterson, 38 F.3d 139. In
Patterson, the court incorrectly held that the government only
needed to prove the "death results" enhancement by a
preponderance of the evidence. Id. at 144; Burrage, 571 U.S.
at 210 ("[T]he 'death results' enhancement . . . is an element
that must be submitted to the jury and found beyond a
reasonable doubt."). Meanwhile, on the issue in this case, the
court provided the following analysis:
Quite simply, the plain language of § 841(b)(1)(C) does
not require, nor does it indicate, that prior to applying the
enhanced sentence, the district court must find that death
resulting from the use of a drug distributed by a
defendant was a reasonably foreseeable event. . . .
[*527] The statute puts drug dealers and users on clear
notice that their sentences will be enhanced if people die
from using the drugs they distribute. Where serious
bodily injury or death results from the distribution of
certain drugs, Congress has elected to enhance a
defendant's sentence regardless of whether the defendant
knew or should have known that death would result. We
will not second-guess this unequivocal choice.
Patterson, 38 F.3d at 145 (quotation of the statute and
internal citations omitted). That's it; that single paragraph is
the analysis on the issue in this case.
Likewise, [**23] the Third Circuit reached its decision—
finding that proximate is not required—in Robinson and
similarly offered almost no analysis. United States v.
Robinson, 167 F.3d at 830-31. The court quoted the above
paragraph from Patterson, and then wrote: "We will not
[second-guess this unequivocal choice] either. After all, our
role is to give effect to Congress's intent. Where, as here,
Congress' language is plain and unambiguous, we simply
apply the language of the statute as written." Id. (internal
citations and quotations omitted). Meanwhile, the court also
questioned its own result, recognizing that in some cases the
causal connection "may be so remote a consequence from the
criminal conduct of the defendant with respect to the
substance that a court might conclude that it would not be
consistent with congressional intent to apply the mandatory
20-year minimum sentence." Id. at 831-32.
[***16] The other cases follow a similar pattern. The
majority admits that McIntosh, 236 F.3d 968, was abrogated
by Burrage. See Maj. Op. at 8. Moreover, its analysis is only
two sentences in addition to quotations from Patterson and
Robinson. McIntosh, 236 F.3d at 972-73. Next, the court in
Carbajal, 290 F.3d 277, analyzing almost verbatim
sentencing guidelines, likewise only provided a paragraph of

analysis, including the erroneous conclusion that the
language [**24] "does not impose any sort of explicit
causation requirement." Id. at 284; Burrage, 571 U.S. at 21819 (holding that the language unambiguously requires proof
of actual causation). Without citation to authority or
explanation, the Ninth Circuit in Houston stated that the
"passive language unambiguously eliminates any statutory
requirement that the death have been foreseeable." 406 F.3d
at 1124. In Soler, the court described the enhancement as a
"rule of strict liability," 275 F.3d at 152, an idea which the
majority explicitly rejects here. Maj. Op. at 9. In Webb, the
court provided subsections to discuss the previous decisions
by other circuits and then simply stated that "we agree." 655
F.3d at 1250-54. As a result of scant analysis, erroneous
interpretations of the language at issue, and cross-referencing
to the other cases, these decision offer almost no persuasive
value, yet the majority began its analysis with a string citation
to these very cases.
The majority also cites to several cases decided after Burrage,
571 U.S. 204, 134 S. Ct. 881, 187 L. Ed. 2d 715. Maj. Op. at
5. These cases suffer from similar issues. In United States v.
Alvarado, the Fourth Circuit merely stated that Patterson, 38
F.3d 139, was still good law after Burrage. United States v.
Alvarado, 816 F.3d 242, 249-50 (4th Cir. 2016). Meanwhile,
in United States v. Burkholder, 816 F.3d 607 (10th Cir.
2016), the court was divided on whether the statute required
proof of proximate cause with Judge Briscoe [**25]
delivering a strong dissent, which again suggests the
ambiguous nature of the language. Id. at 621 (Briscoe, J.,
dissenting). Finally, in United States v. Harden, the Seventh
Circuit relied almost exclusively on the decision in
Burkholder. 893 F.3d 434, 448-49 (7th Cir. 2018) (repeatedly
citing and quoting [*528] Burkholder, 816 F.3d 607).
Although the cases look impressive as a whole, a cursory
inspection of each case reveals that they stand on uneasy
footing and should not be given the persuasive value
proscribed by the majority.

[***17] C. Our Circuit's Case Law Makes It Clear that
the Language Is Ambiguous
Even if these cases were to offer persuasive value in other
circuits, the Court's decision in United States v. Martinez, 588
F.3d 301 (6th Cir. 2009), forecloses the question and makes it
clear that the language at issue here is ambiguous. In
Martinez, the Court examined the healthcare fraud statute, 18
U.S.C. § 1347, which contains an almost identical "death
results" enhancement. 588 F.3d at 317. Under § 1347, if a
heath care fraud "violation results in death, such person shall
be fined under this title, or imprisoned for any term of years
or for life." 18 U.S.C. § 1347(a). In Martinez, as the majority

Page 12 of 14
958 F.3d 517, *528; 2020 U.S. App. LEXIS 14767, **25; 2020 FED App. 0141P (6th Cir.), ***17
admits, "we held that proximate cause was the appropriate
standard to apply in interpreting the phrase 'if the violation
results in death.'" Maj. Op. at 9. Even the majority
agrees [**26] this was a holding, not dicta. Id. It was also a
multi-page analysis. Martinez, 588 F.3d at 317-19. If that
language requires proof of proximate cause, then at the very
least the statute at issue in this case is ambiguous.
The majority tries and fails to distinguish Martinez. First, the
majority notes that the parties did not challenge the proximate
cause standard, but that does not change the fact that the
Court, in Martinez, did its own de novo review of the proper
legal standard, concluding that proof of proximate cause was
required. Id. In fact, the court used the lack of a challenge to
bolster its conclusion that the health care fraud "death results"
enhancement requires proximate cause. Id. at 318. Next, the
majority makes an inapposite comparison to the Burkholder
court's rejection of a case interpreting the "death results"
language in the health care fraud statute: "The focus in
Martinez was thus 'on what is sufficient for the imposition of
the penalty enhancement—not, as here, on what is
necessary."' Maj. Op. at 10. (quoting Burkholder, 816 F.3d at
620). This quotation is misleading because, in Martinez, while
the Court ultimately conducted a sufficiency analysis, the
Court first ruled that proximate cause was required "in
determining whether [**27] a health care fraud violation
'results in death,'" not merely sufficient. Martinez, 588 F.3d at
318-19.
The majority next makes the argument that the two statutes
are different, although not convincingly because the language
is nearly identical in the two statutes:
[***18] Martinez is not dispositive here for two
reasons. First, despite their facial similarities, 21 U.S.C.
§ 841(a)(1) and 18 U.S.C. § 1347 are meaningfully
distinct. Section 1347 criminalizes health-care fraud,
which occurs when a defendant knowingly executes a
"scheme or artifice" to defraud a health-care benefit
program or fraudulently obtains money or property
owned by a health-care benefit program in connection
with the delivery of health-care services. § 1347(a). The
penalty enhancement applies only if the defendant's
fraud "results in" serious bodily injury or death to a
third-party victim. § 1347(a)(2).
The health-care-fraud statute covers a wide range of
illegal activity, which may or may not contemplate
injury or death to third-party victims. Compare Martinez,
588 F.3d at 306-307, (health-care fraud through
prescription of painkillers to drug addicts), with United
States v. [*529] Hunt, 521 F.3d 636, 640-41 (6th Cir.
2008) (health-care fraud through a billing and kickback

scheme). In circumstances in which the potential for
injury or death is not an inherently foreseeable result of
the conduct proscribed by [**28] § 1347, it may make
sense to require the government to prove that it was
reasonably foreseeable to the defendant that the conduct
would be likely to lead to injury or death, see Martinez,
588 F.3d at 319, and that the prohibited conduct was the
proximate cause of the injury or death.
But § 841(b)(1)(C)'s enhanced penalty applies, not when
the prohibited conduct, i.e., the distribution,
manufacture, or dispensing of, or possession with the
intent to distribute, manufacture, or dispense the
controlled substance, results in death or injury, but when
"death or injury results from the use of such substance."
§ 841(b)(1)(C) (emphasis added). It is always
foreseeable that a violation of § 841(a)(1) will involve an
ultimate user of the substance and that death or injury
may result from that use. Because death or injury from
the use of the substance is inherently foreseeable, there is
no need to require the government to prove that they
were reasonably foreseeable to the defendant. It therefore
makes sense to require the government to prove only
but-for causation in order to apply the enhanced penalty.
Maj. Op. at 9-10. The majority's logic is flawed. First, the
majority admits that the language is facially similar. The
distinction noted—health care fraud must [**29] "result in"
the death versus "death or injury results from the use of such
substance"—makes the need for a proximate cause
requirement in § 841 even greater. Under the health care fraud
statute, the death results enhancement is directly tied to the
health care fraud violation whereas, under the death results
enhancement in § 841, the enhancement is tied to the use of
the drug by a third-party. With an intervening act—the use of
the drug by a third party—directly tied to the enhancement,
the Court should find that proof of proximate cause is even
more necessary in § 841.
[***19] The majority also explicitly argues that it is always
reasonably foreseeable that death will result if someone
manufactures, distributes, dispenses, or possesses with intent
to do any of those things. Maj. Op. at 10 ("It is always
foreseeable that a violation of § 841(a)(1) will involve an
ultimate user of the substance and that death or injury may
result from that use."). If that is the case, then why would the
Court not impose a proximate cause requirement for the rare
case where it was not foreseeable. Judge Boggs even
questioned the parties on various iterations of interesting
scenarios where proximate cause would be questionable under
§ 841 [**30] .
Additionally, the majority's citation to a billing and kickback

Page 13 of 14
958 F.3d 517, *529; 2020 U.S. App. LEXIS 14767, **30; 2020 FED App. 0141P (6th Cir.), ***19
scheme case, United States v. Hunt, 521 F.3d 636, 640-41
(6th Cir. 2008), is not relevant here because no death occurred
in Hunt. Had death occurred, I would certainly be interested
to see how the government could first prove actual causation.
Finally, the majority argues the penalty enhancement in § 841
"is explicitly limited," citing a scenario where someone is
"shot in the course of the distribution," Maj. Op. at 10. Of
course, if a victim of healthcare fraud were shot, then this
logic would equally apply to a healthcare fraud violation, as
the healthcare violation would not have "resulted in" death
because the gunshot was the actual cause of death.

1631, 123 L. Ed. 2d 245 (1993) (citations and quotations
omitted).

At a minimum, the holding in Martinez shows that our Circuit
finds the "death results" language ambiguous, and there is an
argument that Martinez should simply control here. Imagine
the scenario where a [*530] doctor fraudulently prescribes
fentanyl and causes the death of one of his patients. Today,
the majority creates the odd scenario where the government
would have to prove proximate cause if he were charged
under § 1347 but would not have to if he were charged under
§ 841. In combination with the Supreme Court's decision to
grant certiorari and the [**31] lack of actual persuasive
authority from the other circuits, it is clear that the "death
results" language in § 841 is ambiguous as to whether it
requires proof of proximate cause.

[T]o say that one event was a proximate cause of another
means that it was not just any cause, but one with a
sufficient connection to the result. . . . Proximate cause is
often explicated in terms of foreseeability or the scope of
the risk created by the predicate conduct. A requirement
of proximate cause thus serves to preclude liability in
situations where the causal link between conduct and
result is so attenuated that the consequence is more aptly
described as mere fortuity.

III. The Other Considerations Weigh in Favor of
Requiring Proof of Proximate Cause
With an ambiguous statute, courts turn to other modes of
statutory interpretation beyond plain language and presume
that Congress intended to retain long-established common law
principles. Proximate cause is one such principle.
Furthermore, the Supreme Court disfavors strict liability
statutes, and, despite the majority's attempts to say that this
statute is not a strict [***20] liability statute, it certainly has
similarities to strict liability statutes, as many circuits have
noted. Additionally, no policy concerns in this case justify
such an extreme sentence when the death was not reasonably
foreseeable. Finally, the Court should fall back on the rule of
lenity and choose the construction that favors criminal
defendants.

A. Proximate Cause is a Fundamental Concept in
Criminal Law
The Supreme Court has instructed courts "that statutes which
invade the common law are to be read with a presumption
favoring the retention of long-established [**32] and familiar
principles, except when a statutory purpose to the contrary is
evident." United States v. Texas, 507 U.S. 529, 534, 113 S. Ct.

Proximate cause is a long-established and familiar principle in
criminal law. In Burrage, 571 U.S. at 210-11, the court began
its analysis, noting that the "law has long considered
causation a hybrid concept, consisting of two constituent
parts: actual cause and legal cause . . . . (often called the
proximate cause)." In the same year it decided Burrage, in
Paroline v. United States, the Supreme Court explained the
meaning and importance of proximate cause at common law:

572 U.S. 434, 444-45, 134 S. Ct. 1710, 188 L. Ed. 2d 714
(2014) (internal citations omitted). The Supreme Court further
explained the importance of proximate cause, noting that
"[p]roximate cause is a standard [**33] aspect of causation in
criminal law and the law of torts. Given proximate cause's
traditional role in causation analysis, this Court has more than
once found a proximate-cause requirement built into a statute
that did not expressly impose one." Id. at 446 (internal
citation omitted). Although the court was examining a statute
with a specific reference to proximate cause in Paroline, it
wrote that "[e]ven if [the statute] made no express reference
to proximate causation, the Court might well hold that a
showing of proximate cause was required." Id. While this was
dicta, [*531] "[l]ower courts are obligated to follow
Supreme Court dicta, particularly where there is not [***21]
substantial reason for disregarding it, such as age or
subsequent statements undermining its rationale." ACLU of
Ky. v. McCreary Cty., Ky., 607 F.3d 439, 447 (6th Cir. 2010)
(quotations omitted).
Here, because the language is ambiguous and Congress did
not reveal a statutory purpose to the contrary, the Court
should follow the common law and the dicta of the Supreme
Court and require proof of proximate cause when applying the
"death results" enhancement in § 841.

B. The Strict Liability Aspects of the § 841 Enhancement
Also Favor Requiring Proof of Proximate Cause
Strict liability is generally disfavored in criminal [**34] law,

Page 14 of 14
958 F.3d 517, *531; 2020 U.S. App. LEXIS 14767, **34; 2020 FED App. 0141P (6th Cir.), ***21
and here textually the statute looks like a strict liability
enhancement in some ways. As such, the Court should favor
the interpretation that limits strict liability and thus require
proof of proximate cause. "While strict-liability offenses are
not unknown to the criminal law and do not invariably offend
constitutional requirements, the limited circumstances in
which Congress has created and this Court has recognized
such offenses attest to their generally disfavored status."
United States v. U.S. Gypsum Co., 438 U.S. 422, 437-38, 98
S. Ct. 2864, 57 L. Ed. 2d 854 (1978) (citations omitted).
Similar to the court's language in Paroline, the court, in
Gypsum, declared, "[c]ertainly far more than the simple
omission of the appropriate phrase from the statutory
definition is necessary to justify dispensing with an intent
requirement." Id. at 438.
Here, the majority is correct that the statute contains a mens
rea requirement, but the "death results" enhancement does
not. Our Circuit has actually described the enhancement as a
strict liability enhancement. "On its face, [21 U.S.C. § 841] is,
in effect, a strict liability statute with respect to the injury or
death of another arising out of the distribution of drugs."
United States v. Rebmann, 226 F.3d 521, 525 (6th Cir. 2000)
(overruled on other grounds). The same circuits that the
majority cites for persuasive [**35] value have also
described the enhancement in strict liability terms. See
Harden, 893 F.3d at 448 ("[D]ue to the extremely hazardous
nature of drug distribution, a policy of strict liability when
death occurs fits the statutory language and its evident
purpose."); Burkholder, 816 F.3d at 623-24 (Briscoe, J.,
dissenting) (discussing the enhancement in a parallel
provision in terms of strict liability); Webb, 655 F.3d at 1252,
1258 nn.13, 17 (quoting and citing approvingly to other
circuits who described the enhancement in [***22] strict
liability terms); Carbajal, 290 F.3d at 284 ("We therefore
hold, in accordance with out sister circuits' interpretation of §
841(b)(1)(C), that § 2D1.1(a)(2) is a strict liability provision
and does not require proof of proximate causation or
reasonable foreseeability."); Soler, 275 F.3d at 152 (finding
that "a rule of strict liability applies"); McIntosh, 236 F.3d at
974 ("Our conclusion that the statute imposes strict liability
upon [the defendant] for [the victim's] death vitiates that
argument.").
Because the "death results" enhancement has the markings of
a strict liability statute, the Court should find, if not an intent
element, then at least a proximate cause requirement in the
statute.

C. There Is No Policy Favoring Eliminating a Proximate
Cause Requirement for the "Death Results"
Enhancement.

In Burrage, the government argued that [**36] a but-for
causation requirement would "prove a policy disaster." 571
U.S. at 216- [*532] 17. The Supreme Court outright rejected
that argument. Id. The government and the majority do not
even attempt to make that argument for proximate cause,
instead conceding that in all cases the government will have
no issue proving proximate cause. Maj. Op. at 6 ("Use of a
Schedule I or II controlled substance is inherently dangerous.
Death to the drug user is therefore always foreseeable when a
defendant manufactures, distributes, dispenses, or possesses
with intent to manufacture, distribute, or dispense those
substances."). Without a competing policy, the Court should
fall back on the policies of the common law and require proof
of proximate cause for those cases where foreseeability is not
so certain.

D. The Rule of Lenity Also Dictates Requiring Proof of
Proximate Cause
Finally, the rule of lenity controls here. The rule of lenity
holds that "where there is ambiguity in a criminal statute,
doubts are resolved in favor of the defendant." Smith v.
United States, 508 U.S. 223, 246, 113 S. Ct. 2050, 124 L. Ed.
2d 138 (1993) (Scalia, J., dissenting) (citations and quotations
omitted). Here, the statute is ambiguous (at minimum), and
therefore the Court should choose the construction that is
more favorable [**37] to the defendant, requiring proof of
proximate cause to apply the "death results" enhancement.
That conclusion is only bolstered by both the majority and
dissent's reference to the rule of lenity in Burrage. 571 U.S. at
216 ("Especially in the interpretation of a [***23] criminal
statute subject to the rule of lenity, we cannot give the text a
meaning that is different from its ordinary, accepted meaning,
and that disfavors the defendant." (internal citation omitted));
id. at 219 (Ginsburg, J., concurring) ("I do agree that 'in the
interpretation of a criminal statute subject to the rule of
lenity,' where there is room for debate, one should not choose
the construction 'that disfavors the defendant." (quoting the
majority)). In sum, the rule of lenity should apply in this case
and requires an interpretation of § 841 which favors the
defendant.

IV. Conclusion
For the foregoing reasons, I respectfully dissent and would
require the government to prove proximate cause for the
"death results" enhancement in 21 U.S.C. § 841.

End of Document

